<html>
<title> - DEEP SPACE EXPLORATION: EXAMINING THE IMPACT OF THE PRESIDENT'S BUDGET</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                        DEEP SPACE EXPLORATION:
                        EXAMINING THE IMPACT OF
                         THE PRESIDENT'S BUDGET

=======================================================================

                                 HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            October 9, 2015

                               __________

                           Serial No. 114-42

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


       Available via the World Wide Web: http://science.house.gov

                              _____________
                              
                              
                        U.S. GOVERNMENT PUBLISHING OFFICE
97-761 PDF                       WASHINGTON : 2016                        
             
_________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="89eef9e6c9eafcfafde1ece5f9a7eae6e4a7">[email&#160;protected]</a>  
            
              
              
              
              
              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEPHEN KNIGHT, California           MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DRAIN LAHOOD, Illinois
                                 ------                                

                         Subcommittee on Space

                     HON. BRIAN BABIN, Texas, Chair
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             AMI BERA, California
MICHAEL T. McCAUL, Texas             ZOE LOFGREN, California
MO BROOKS, Alabama,                  ED PERLMUTTER, Colorado
BILL POSEY, Florida                  MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            DONALD S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   EDDIE BERNICE JOHNSON, Texas
STEVE KNIGHT, California
LAMAR S. SMITH, Texas
                           
                           C O N T E N T S

                            October 9, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Babin, Chairman, Subcommittee 
  on Space, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    12
    Written Statement............................................    13

Statement by Representative Donna F. Edwards, Ranking Minority 
  Member, Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    14
    Written Statement............................................    16

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    16
    Written Statement............................................    18

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    19
    Written Statement............................................    20

                               Witnesses:

Mr. Doug Cooke, Owner, Cooke Concepts and Solutions; Former 
  Associate Administrator, Exploration Systems, NASA
    Oral Statement...............................................    21
    Written Statement............................................    23

Mr. Dan Dumbacher, Professor of Engineering Practice, Purdue 
  University; Former Deputy Associate Administrator, Human 
  Exploration and Operations Mission Directorate, NASA
    Oral Statement...............................................    32
    Written Statement............................................    34

Discussion.......................................................    41

             Appendix I: Answers to Post-Hearing Questions

Mr. Doug Cooke, Owner, Cooke Concepts and Solutions; Former 
  Associate Administrator, Exploration Systems, NASA.............    56

Mr. Dan Dumbacher, Professor of Engineering Practice, Purdue 
  University; Former Deputy Associate Administrator, Human 
  Exploration and Operations Mission Directorate, NASA...........    77

 
                        DEEP SPACE EXPLORATION:
            EXAMINING THE IMPACT OF THE PRESIDENT'S BUDGET

                              ----------                              


                        FRIDAY, OCTOBER 9, 2015

                  House of Representatives,
                              Subcommittee on Space
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:17 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Babin [Chairman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Chairman Babin. The Subcommittee on Space and will come to 
order, please.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    Good morning. Welcome to today's hearing entitled ``Deep 
Space Exploration: Examining the Impact of the President's 
Budget.'' I recognize myself for five minutes for an opening 
statement.
    Last week was an amazing time for the space community. A 
major Hollywood film about the exploration of Mars debuted 
within days of NASA announcing a significant scientific 
discovery: liquid water on Mars. The coincidence of these two 
events garnered the public's attention, and rightly so. Rarely 
does popular culture and science align in such a serendipitous 
fashion.
    The attention also prompted obvious questions from the 
public such as ``how will discovering water on Mars impact 
future exploration,'' ``are we really going to Mars,'' and 
``how and when are we going to get there?'' These are all 
questions that the general public may not have the answers to, 
but thankfully NASA does.
    Because of bipartisan direction and investments made by 
Congress, we are well on our way to Mars. We are building the 
most powerful rocket ever built, the Space Launch System, so we 
can launch large payloads to beyond-Earth orbit with decreased 
risk to overall missions. We are building the Orion crew 
capsule so that our astronauts can travel farther into deep 
space than ever before, and we are upgrading our Ground Systems 
to support 21st century operations. NASA has already tested the 
RS-25 engines and five segment boosters that will power the 
SLS; they've already launched an uncrewed version of Orion; and 
the Kennedy Space Center is undergoing revolutionary upgrades.
    But there is much more that needs to be done if the United 
States plans on launching a mission to Mars. We need to build a 
habitat module, advanced in-space propulsion, and a lander and 
ascent vehicle to name a few components.
    Fortunately, we don't have to develop all of these 
capabilities at once. We can develop them incrementally over 
time. There are also potential opportunities for international 
and commercial partnerships that could be leveraged as well. 
The first step on the journey to Mars, however, begins with the 
development of SLS, Orion, and the related Ground Systems.
    Unfortunately, Congress's support has not been matched by 
the Administration. In 2010, the President signed the NASA 
Authorization Act of 2010 into law, thereby directing NASA to 
develop the SLS and Orion systems. This piece of legislation 
was the product of a democratically controlled House and Senate 
that passed with 185 Democrats and 119 Republicans, 
demonstrating overwhelming bipartisanship. These programs are 
critical for the journey to Mars, and yet since 2010, the 
Administration has attempted to cut their funding every year.
    This year alone, the President's budget request contains a 
cut of $343.5 million for SLS and a cut of $104 million for 
Orion. All told, the President's budget has requested nearly 
half a billion dollars in cuts to these programs this fiscal 
year. This Committee's NASA Authorization Act for 2016 and 2017 
fully rejects these proposed cuts, and both the House and 
Senate Appropriations Committees have approved bills to do the 
same.
    Even though Congress consistently rejects the 
Administration's proposed cuts year after year, the proposed 
cuts still have a negative impact on the programs. The annual 
budget uncertainty that the Administration perpetuates impairs 
NASA's ability to manage the program efficiently on behalf of 
the taxpayer.
    At the same time that the Administration has been 
strangling these programs, the NASA workforce has been 
diligently trying to keep the programs moving by setting up 
alternative cost and schedule commitments called Management 
Agreements. The agreements are separate from the official 
commitments in the KDP-C. While it is promising that NASA is 
trying to make the best out of a poor situation, having 
multiple plans could potentially lead to confusion and 
inefficiencies.
    Fortunately, SLS and Orion have been successful in spite of 
the external challenges placed on the programs. This is largely 
thanks to the supremely professional workforce at NASA and the 
contractors. To all the hardworking men and women who are 
advancing the development of these programs, please know that 
your hard work is very much appreciated. Your work on these 
programs will inspire the next generation of explorers, 
maintain U.S. leadership globally, and chart new courses for 
humanity. Thank you for all that you do. You are the best this 
nation has to offer. My hope is that folks across the 
Administration will reverse course and begin to support the SLS 
and Orion programs, and the workforce that makes them possible, 
with the funding necessary to continue their success. SLS and 
Orion are crucial for deep space exploration, and the first 
steps to Mars.
    We have two steely-eyed missile men before us today who 
were directly involved in the management of the human 
exploration program while they were at NASA. I look forward to 
hearing about how we can all ensure the success of our nation's 
human exploration program.
    [The prepared statement of Chairman Babin follows:]

              Prepared Statement of Subcommittee on Space
                          Chairman Brian Babin

    Last week was an amazing time for the space community. A major 
Hollywood film about the exploration of Mars debuted within days of 
NASA announcing a significant scientific discovery--liquid water on 
Mars. The coincidence of these two events garnered the public's 
attention, and rightly so. Rarely does popular culture and science 
align in such a serendipitous fashion. The attention also prompted 
obvious questions from the public such as ``how will discovering water 
on Mars impact future exploration,'' ``are we really going to Mars,'' 
and ``how and when are we going to get there?''
    These are all questions that the general public may not have the 
answers to, but thankfully NASA does. Because of bipartisan direction 
and investments made by Congress, we are well on our way to Mars. We 
are building the most powerful rocket ever built, the Space Launch 
System, so we can launch large payloads to beyond Earth-orbit (BEO) 
with decreased risk to overall missions; we are building the Orion crew 
capsule so that our astronauts can travel farther into deep space than 
ever before; and we are upgrading our ground systems to support 21st 
century operations. NASA has already tested the RS-25 engines and five 
segment boosters that will power the SLS; they've already launched an 
uncrewed version of Orion; and the Kennedy Space Center is undergoing 
revolutionary upgrades.
    But there is more that needs to be done if the United States plans 
on launching a mission to Mars. We need to build a habitat module, 
advanced in-space propulsion, and a lander and ascent vehicle to name a 
few components.
    Fortunately, we don't have to develop all of these capabilities at 
once. We can develop them incrementally over time. There are also 
potential opportunities for international and commercial partnerships 
that could be leveraged as well.
    The first step on the journey to Mars, however, begins with the 
development of SLS, Orion, and the related ground systems. 
Unfortunately, Congress's support has not been matched by the 
Administration. In 2010, the President signed the NASA Authorization 
Act of 2010 into law, thereby directing NASA to develop the SLS and 
Orion systems. This piece of legislation was the product of a 
Democratically controlled House and Senate that passed with 185 
Democrats and 119 Republicans--demonstrating overwhelming 
bipartisanship. These programs are critical for the journey to Mars, 
and yet since 2010, the Administration has attempted to cut their 
funding every year.
    This year alone, the President's budget request contains a cut of 
$343.5 million for SLS and a cut of $104 million for Orion. All told, 
the President's budget has requested nearly half a billion dollars in 
cuts to these programs this fiscal year. This Committee's NASA 
Authorization Act for 2016 and 2017 fully rejects the proposed cuts, 
and both the House and Senate Appropriations Committees have approved 
bills to do the same. Even though Congress consistently rejects the 
Administration's proposed cuts year-after-year, the proposed cuts still 
have a negative impact on the programs. The annual budget uncertainty 
that the Administration perpetuates impairs NASA's ability to manage 
the program's efficiently on behalf of the taxpayer.
    At the same time that the Administration has been strangling these 
programs, the NASA workforce has been diligently trying to keep the 
programs moving by setting up alternative cost and schedule commitments 
called Management Agreements.
    The agreements are separate from the official commitments in the 
KDP-C. While it is promising that NASA is trying to make the best out 
of a poor situation, having multiple plans could potentially lead to 
confusion and inefficiencies. Fortunately, SLS and Orion have been 
successful in spite of the external challenges placed on the programs. 
This is largely thanks to the supremely professional workforce at NASA 
and the contractors. To all the hardworking men and women who are 
advancing the development of these programs, know that your work is 
appreciated. Your work on these programs will inspire the next 
generation of explorers, maintain U.S. leadership globally, and chart 
new courses for humanity.Thank you for all that you do. You are the 
best this nation has to offer.
    My hope is that folks across the Administration will reverse course 
and begin to support the SLS and Orion programs, and the workforce that 
makes them possible, with the funding necessary to continue their 
success. SLS and Orion are crucial for deep space exploration, and the 
first steps to Mars.
    We have two steely-eyed missile men before us today who were 
directly involved in the management of the human exploration program 
while at NASA. I look forward to hearing about how we can all ensure 
the success of our nation's human exploration program.

    Chairman Babin. I now recognize the Ranking Member, the 
gentlewoman from Maryland, for an opening statement.
    Ms. Edwards. Good morning, and thank you, Mr. Chairman, and 
I want to welcome back our two witnesses, Mr. Dumbacher and Mr. 
Cooke, today, and I say ``back'' because both of you have 
appeared before our Subcommittee previously, as former leaders 
of NASA's human exploration programs. I appreciate your past 
public service as well as your willingness to testify here 
today.
    Mr. Chairman, last December, millions of people in America 
and around the world tasted the future when NASA conducted the 
Exploration Flight Test-EFT-1 in which the Orion crew vehicle 
traveled farther into space than any human spaceflight vehicle 
since the Apollo era. That future is an exciting one that 
includes sending humans to the surface of Mars. And Mars is the 
goal that we established in our bipartisan House-passed, 
overwhelmingly House-passed, NASA Authorization Act of 2015. We 
sent it over to the Senate. And it's the consensus goal for 
human space exploration of a distinguished National Academies 
panel that recently examined U.S. human space exploration.
    So, it's quite fitting, Mr. Chairman, that we follow up on 
our Subcommittee's review of the Space Launch System and Orion 
crew vehicle programs that was held last December, just after 
the EFT-1 flight test, and see where these programs stand now. 
By any measure, the progress on SLS and Orion is visible and 
tangible. NASA and its contractors deserve credit for the many 
accomplishments achieved to date. Tests of the SLS solid rocket 
booster engines and the RS-25 main engine are reviving and 
modernizing the propulsion activities that brought us through 
the successful Shuttle era. Elements of the Orion crew vehicle 
that will return American astronauts to deep space are being 
fabricated even as I speak. And just a few weeks ago, the Orion 
program was approved to transition from formulation into 
development, a major milestone known as Key Decision Point C or 
KDP-C.
    This hearing should provide an opportunity to discuss the 
outcomes of the Orion KDP-C review and clarify any questions, 
including the perception, by some, of a two-year ``slip'' to 
the first crewed flight test known as Exploration Mission-2, or 
EM-2. However, I would note that the members of the panel were 
not involved in this recent Orion KDP-C review. Only NASA can 
address questions regarding the KDP-C milestone, discuss the 
breadth of accomplishments achieved to date, and inform us of 
the challenges going forward. Only NASA can do that.
    That's why, Mr. Chairman, I'm actually quite puzzled that 
NASA was not initially invited to testify, and why I extended 
an invitation to the Associate Administrator of NASA's Human 
Exploration and Operations Mission Directorate to serve as a 
witness. Unfortunately, the Associate Administrator's 
international travel schedule precluded his ability to appear 
this morning. So, I hope, Mr. Chairman, that we'll give NASA 
the opportunity in another hearing to provide the details on 
the SLS and Orion programs that this Subcommittee needs to 
hear.
    The fact is that ensuring that SLS and Orion make maximum 
progress, especially in this environment of budgetary 
uncertainty, is a job for both the Administration and for 
Congress. And just as a side note, I would say that the budget 
caps known as the sequester give rise to the inability for us 
to get a multiyear bipartisan authorization and appropriation 
to the President's desk as the evidence of our support for SLS 
and Orion and for the journey to Mars. We have to lift those 
budget caps in order to accomplish the goals that we've set out 
for the agency and for its contractors. Ensuring that SLS and 
Orion make maximum progress, especially in this environment of 
budget uncertainty, is a job both for the Administration and 
for Congress. And as the National Academies report reminds us, 
achieving the goals for sending humans to deep space requires a 
joint commitment on the part of Congress and on the part of the 
Administration.
    Mars is a goal that's worthy of this great nation, and I 
look forward to working with you, Mr. Chairman, to enable 
NASA's continued progress toward that goal.
    And before I yield, I want to welcome an intern for a month 
in my office, Salil Maddy, who is at the Madeira School. We 
share interns with them every year, and two of them here today 
are very interested in space, and so we welcome them.
    And thank you, Mr. Chairman, and I yield back the balance 
of my time.
    [The prepared statement of Ms. Edwards follows:]

              Prepared Statement of Subcommittee on Space
                    Ranking Member Donna F. Edwards

    Good morning. I'd like to welcome back our two witnesses, Mr. 
Dumbacher and Mr. Cooke. I say ``back'' because both of you have 
appeared before our Subcommittee previously, as former leaders of 
NASA's human exploration programs. I appreciate your past public 
service as well as your willingness to testify today.
    Mr. Chairman, last December, millions of people in America and 
around the world tasted the future when NASA conducted the Exploration 
Flight Test--EFT-1--in which the Orion crew vehicle traveled farther 
into space than any human spaceflight vehicle since the Apollo era. 
That future is an exciting one that includes sending humans to the 
surface of Mars.
    Mars is the goal that we established in our bipartisan House-passed 
NASA Authorization Act of 2015. And it's the consensus goal for human 
space exploration of a distinguished National Academies panel that 
recently examined U.S. human space exploration. So, it's fitting, Mr. 
Chairman, that we follow-up on our Subcommittee's review of the Space 
Launch System and Orion crew vehicle programs that was held last 
December, just after the EFT-1 flight test, and see where these 
programs stand now.
    By any measure, the progress on SLS and Orion is visible and 
tangible. NASA and its contractors deserve credit for the many 
accomplishments achieved to date. Tests of the SLS solid rocket booster 
engines and the RS-25 main engine are reviving and modernizing the 
propulsion activities that brought us through the successful Shuttle 
era. Elements of the Orion crew vehicle that will return American 
astronauts to deep space are being fabricated as I speak. And just a 
few weeks ago, the Orion program was approved to transition from 
formulation into development, a major milestone known as Key Decision 
Point C or KDP-C.
    This hearing should provide an opportunity to discuss the outcomes 
of the Orion KDP-C review and clarify any questions, including the 
perception, by some, of a two-year ``slip'' to the first crewed flight 
test known as Exploration Mission-2 or EM-2.
    However, I would note that the members of the panel were not 
involved in this recent Orion KDP-C review. Only NASA can address 
questions regarding the KDP-C milestone, discuss the breadth of 
accomplishments achieved to date, and inform us of the challenges going 
forward. That is why I was puzzled, Mr. Chairman, that NASA was not 
initially invited to testify, and why I extended an invitation to the 
Associate Administrator of NASA's Human Exploration and Operations 
Mission Directorate to serve as a witness. Unfortunately, the
    Associate Administrator's international travel schedule precluded 
his ability to appear this morning.
    So, I hope, Mr. Chairman, that we will give NASA the opportunity in 
another hearing to provide the details on the SLS and Orion programs 
that this Subcommittee needs to hear. Because ensuring that SLS and 
Orion make maximum progress, especially in this environment of 
budgetary uncertainty, is a job for both the Administration and 
Congress. And as the National Academies report reminds us, achieving 
the goals for sending humans to deep space requires a joint commitment 
on the part of Congress and the Administration.
    Mars is a goal worthy of this great nation and I look forward to 
working with you, Mr. Chairman, to enable NASA's continued progress 
toward that goal.
    Thank you, and I yield back.

    Chairman Babin. Thank you, Ms. Edwards.
    I now recognize the Chairman of the full Committee, the 
gentleman from Texas, Mr. Smith.
    Chairman Smith. Thank you, Mr. Chairman.
    At a fundamental level, space exploration--the mission of 
NASA--is about inspiration. This inspiration fuels our desire 
to push the boundaries of what is possible and to reach beyond 
our own planet.
    The American people are fascinated with space exploration. 
Just last week, the discovery that water sometimes flows on 
Mars' surface made headlines across the world. And the latest 
space film, The Martian, has sparked questions about when NASA 
will send astronauts to Mars. Today's hearing seeks to answer 
those questions and examine the effect of the President's 
budget on our exploration programs. In its fiscal year 2016 
budget proposal, the Obama Administration proposed a cut of 
over $440 million from the programs that will take us to Mars: 
the Space Launch System and Orion crew vehicle. This isn't new; 
the President has tried to cut SLS and Orion every year since 
he took office.
    But there should be no misunderstanding: there is 
bipartisan support within Congress for SLS and the Orion crew 
vehicle. This Committee restored the proposed cuts in our 
authorization bill, and the House and the Senate Appropriations 
Committees restored these funds and supported SLS and Orion at 
the levels necessary to keep their development on track. Yet 
the Administration continues to try to strangle these programs.
    NASA recently announced that the first crewed mission for 
SLS and Orion was delayed by two years because the 
Administration would not allow NASA to budget for the programs. 
The Administration regularly cuts SLS and Orion, and Congress 
continues to restore its cuts. The budget instability caused by 
the Administration makes it hard for NASA to plan and execute 
these critical programs. The fact that NASA can still maintain 
these earlier dates in the face of Administration opposition is 
a testament to the ingenuity, resolve, and professionalism of 
the NASA workforce.
    The Obama Administration cannot continue to claim that it 
prioritizes Mars exploration if it refuses to prioritize and 
support the programs that will get us there.
    The SLS and Orion programs represent what is most 
impressive about the American spirit: our desire to explore. 
The technologies that are developed for these programs 
exemplify our greatest breakthroughs and demonstrate American 
ingenuity.
    The Apollo program 50 years ago demonstrated that we could 
reach the Moon. Orion and SLS will take us beyond that and 
rekindle the American spirit of discovery and advance humanity 
farther in space than ever before. Congress will continue to 
ensure that these national priorities receive the funding they 
need to stay on schedule and on budget.
    Great nations do great things, and fortune favors the bold. 
The next several years will determine whether American 
astronauts will be the first to plant a flag on Mars. We want 
them to have arrived there onboard an Orion crew vehicle, 
propelled by the Space Launch System.
    Mr. Chairman, I also just want to comment on the recent 
handout that we have all seen by the Administration called 
``NASA's Journey to Mars.'' Regrettably, however, this proposal 
contains no budget, it contains no schedule, no deadlines. It's 
just some real pretty photographs and some nice words. That is 
not going to do it. That is not going to get us to Mars. This 
sounds good, but it's actually a journey to nowhere until we 
have that budget and we have the schedule and we have the 
deadlines. And I hope the Administration will change its 
posture and decide in the future that it is actually going to 
support SLS and Orion and keep them on schedule because their 
proposals to cut SLS and Orion every single year is not helping 
us achieve the great goals that most Americans want to achieve 
in space.
    And I'll yield back.
    [The prepared statement of Chairman Smith follows:]

                  Prepared Statement of Full Committee
                        Chairman Lamar S. Smith

    At a fundamental level, space exploration--the mission of NASA--is 
about inspiration. This inspiration fuels our desire to push the 
boundaries of what is possible and to reach beyond our own planet.
    The American people are fascinated with space exploration. Just 
last week, the discovery that water sometimes flows on Mars' surface 
made headlines across the world. And the latest space film, The 
Martian, has sparked questions about when NASA will send astronauts to 
Mars.
    Today's hearing seeks to answer those questions and examine the 
effect of the president's budget on our exploration programs.
    In its Fiscal Year 2016 budget proposal, the Obama administration 
proposed a cut of over $440 million from the programs that will take us 
to Mars: the Space Launch System (SLS) and Orion crew vehicle. This 
isn't new; the president has tried to cut SLS and Orion every year 
since he took office.
    But there should be no misunderstanding: there is bipartisan 
support within Congress for SLS and the Orion crew vehicle. This 
Committee restored the proposed cuts in our Authorization bill. And the 
House and the Senate Appropriations Committees restored these funds and 
supported SLS and Orion at the levels necessary to keep their 
development on track.
    Yet the administration continues to try to strangle these programs.
    NASA recently announced that the first crewed mission for SLS and 
Orion was delayed by two years because the administration would not 
allow NASA to budget for the programs.
    The administration regularly cuts SLS and Orion and Congress 
continues to restore its cuts. The budget instability caused by the 
administration makes it hard for NASA to plan and execute these 
critical programs.
    The fact that NASA can still maintain these earlier dates in the 
face of administration opposition is a testament to the ingenuity, 
resolve, and professionalism of the NASA workforce.
    The Obama administration cannot continue to claim that it 
prioritizes Mars exploration if it refuses to prioritize and support 
the programs that will get us there.
    The SLS and Orion programs represent what is most impressive about 
the American spirit--our desire to explore. The technologies that are 
developed for these programs exemplify our greatest breakthroughs and 
demonstrate American ingenuity.
    The Apollo program fifty years ago demonstrated that we could reach 
the moon. Orion and SLS will take us beyond that and rekindle the 
American spirit of discovery and advance humanity farther in space than 
ever before.
    Congress will continue to ensure that these national priorities 
receive the funding they need to stay on schedule and on budget.
    Great nations do great things. And fortune favors the bold. The 
next several years will determine whether American astronauts will be 
the first to plant a flag on Mars. We want them to have arrived there 
onboard an Orion crew vehicle, propelled by the Space Launch System.
    Mr. Chairman, I also just want to comment on the recent handout 
that we have all seen by the administration called ``NASA's Journey to 
Mars.'' Regrettably, however, this proposal contains no budget; it 
contains no schedule, no deadlines. It's just some real pretty 
photographs and some nice words. That is not going to do it. That is 
not going to get us to Mars. This sounds good, but it is actually a 
journey to nowhere until we have that budget and we have the schedule 
and we have the deadlines.
    And I hope the administration will change its posture and decide in 
the future that it is actually going to support SLS and Orion and keep 
them on schedule because their proposals to cut SLS and Orion every 
single year is not helping us achieve the great goals that most 
Americans want to achieve in space.

    Chairman Babin. Thank you, Mr. Chairman.
    I now recognize the Ranking Member of the full Committee, 
the gentlewoman from Texas.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman, 
and good morning. Let me welcome our witnesses. I look forward 
to your testimony.
    In view of the uncertainties in today's schedule, I will be 
brief in my remarks so that we can have enough time for a good 
discussion with our witnesses.
    This Committee has long supported a strong human 
spaceflight and exploration program for the nation. I'm excited 
about the prospect of America leading an international team to 
the surface of Mars not too many years from now. And I hope 
that our two witnesses, who have significant previous 
experience in NASA's human exploration program, will help us 
better understand the challenges NASA faces in realizing the 
goal.
    NASA has just released its updated ``Journey to Mars'' 
report, and I hope that we will invite NASA to come before this 
Committee to discuss it. As Ms. Edwards has noted, NASA should 
really be at the table today for this hearing.
    Getting to Mars will be very challenging. We all know that. 
And we know that it will take adequate funding if we are to get 
there efficiently and safely.
    I have made no secret of my willingness to invest more in 
NASA, and this Committee has that authority. All we have to do 
is authorize it and its human exploration, aeronautics, 
science, and technology programs because it is an investment, 
not just spending, an investment that will pay long-lasting 
dividends to this nation as it has in the past.
    But it's not just a question of more money. It's giving 
NASA more predictability as to when that money will actually 
show up. If this Congress is looking for reasons why NASA's 
exploration program faces potential delays, we need to look no 
further than ourselves right here on this Committee. Too many 
times in recent years, NASA has had no idea when it would 
actually get an appropriation, whether it would actually be 
reauthorized, whether that appropriation would be for more than 
a few months, or whether they may even have to suspend their 
work due to a government shutdown. That is no way that a 
government should treat a premier program and a premier R&D 
enterprise and its dedicated workforce to have it to operate.
    If we are going to ask NASA and its contractors to carry 
out the extremely challenging job of getting America to Mars, 
this Congress is going to have do its job as well.
    So I thank you, Mr. Chairman, and I yield back, and I wait 
to hear what you are going to authorize for this mission.
    Thank you.
    [The prepared statement of Ms. Johnson of Texas follows:]

                  Prepared Statement of Full Committee
                  Ranking Member Eddie Bernice Johnson

    Good morning, and welcome to our witnesses. I look forward to your 
testimony. In view of the uncertainties in today's schedule, I will be 
brief in my remarks so that we can have enough time for a good 
discussion with our witnesses.
    This Committee has long supported a strong human space flight and 
exploration program for the nation. I am excited about the prospect of 
America leading an international team to the surface of Mars not too 
many years from now. And I hope that our two witnesses, who have 
significant previous experience in NASA's human exploration program, 
will help us better understand the challenges NASA faces in realizing 
that goal.
    NASA has just released its updated ``Journey to Mars'' report, and 
I hope that we will invite NASA to come before this Committee to 
discuss it. As Ms. Edwards has noted, NASA should really be at today's 
hearing too.
    Getting to Mars will be very challenging. We all know that. And we 
know that it will take adequate funding if we are to get there 
efficiently and safely. I have made no secret of my willingness to 
invest more in NASA--in its human exploration, aeronautics, science, 
and technology programs. Because it is an investment--not just 
spending--an investment that will pay long-lasting dividends to this 
nation.
    But it's not just a question of more money--it's giving NASA some 
predictability as to when that money will actually show up. If this 
Congress is looking for reasons why NASA's exploration program faces 
potential delays, we need look no further than ourselves.
    Too many times in recent years, NASA has had no idea when it would 
actually get an appropriation, whether that appropriation would be for 
more than a few months, or whether they might even have to suspend 
their work due to a government shutdown. That is no way for America's 
premier R&D enterprise and its dedicated workforce to have to operate.
    If we are going to ask NASA and its contractors to carry out the 
extremely challenging job of getting America to Mars, this Congress is 
going to have do its job too.Thank you, and I yield back the balance of 
my time.

    Chairman Babin. Thank you, Mrs. Johnson.
    Let me introduce our witnesses now. First we have Mr. 
Douglas Cooke who will be testifying, the Owner of Cooke 
Concepts and Solutions, and a former Associate Administrator of 
Exploration Systems at NASA. This division is responsible for 
building Orion and the SLS, the two vehicles that will take 
humans to deep space destinations including Mars. Mr. Cooke is 
the recipient of several awards including the Presidential 
Distinguished Rank Award and Presidential Meritorious Rank 
Award. He has over 40 years of experience in human spaceflight. 
He received his bachelor's in Aerospace Engineering from Texas 
A&M University, and we're very happy to have him here today. 
Thank you, Mr. Cooke.
    Our second witness today is Mr. Daniel Dumbacher. Mr. 
Dumbacher is a Professor of Engineering Practice at Purdue 
University. Mr. Dumbacher served as Deputy Associate 
Administrator in the Exploration Systems Development Division 
at NASA. He has received the Presidential Rank Award for 
Meritorious Service and the NASA Exceptional Achievement Medal. 
Prior to this 35-year career with NASA, Mr. Dumbacher earned 
his bachelor's degree in Mechanical Engineering from Purdue 
University and a master's in Business Administration from the 
University of Alabama. He is also a graduate of the Senior 
Managers and Government Study Program at Harvard University.
    I now recognize Mr. Cooke for five minutes to present his 
testimony.

              TESTIMONY OF MR. DOUG COOKE, OWNER,

                 COOKE CONCEPTS AND SOLUTIONS;

                FORMER ASSOCIATE ADMINISTRATOR,

                   EXPLORATION SYSTEMS, NASA

    Mr. Cooke. Thank you, Chairman Babin----
    Chairman Babin. Mr. Cooke, if you could start over and turn 
on your mic.
    Mr. Cooke. I apologize.
    I want to thank Chairman Babin, Ranking Member Edwards, and 
from the full Committee, Chairman Smith and Ranking Member 
Johnson, and Members of this Committee for this opportunity.
    My interest in human exploration of space has been a 
primary focus of my life and career since the flights of Yuri 
Gagarin and the Mercury astronauts. The success of programs to 
send people to the Moon and Mars is of paramount importance to 
me, and I believe to everyone.
    I applaud your bipartisan support and the people at NASA 
and in industry who work diligently every day to make these and 
other NASA programs successful.
    The important questions you're asking specifically address 
deep space exploration, so that is the part of the budget I'll 
address.
    The most challenging aspect of managing these programs is 
due to constrained budgets and unplanned changes to operating 
budgets, whether real or contrived. The technical challenges 
are fun in comparison. The disparity between the President's 
budget request, or PBR, and budgets passed by Congress for 
exploration vehicles--the Space Launch System, Orion, and 
Ground Systems--causes problems in managing and executing these 
programs. It also causes issues in perceptions of program 
health.
    To advance these programs Congress has consistently passed 
budgets each year that are significantly greater than the PBR. 
It has been clear Congress intends to follow through with this 
necessary funding, yet the Administration asks for less.
    NASA managers are required to plan the complex development 
schedules to the PBR over the five-year runout. NASA fixed cost 
are included, and are a higher percentage of a lower PBR 
budget. This leaves less money for SLS and Orion progress. 
Constrained budgets limit what work can be accomplished more 
efficiently in parallel. It moves stated flight dates later 
than if they planned to Congressional budget runouts. Contracts 
are negotiated with companies for content and schedule, flight 
dates and expectations are set. When there are major policy or 
priority shifts or disruptions to the budget process on 
funding, these detailed plans and their interdependencies have 
to be changed, schedules and contracts are renegotiated at 
additional cost, adding to the problem.
    As an example, the 2016 President's request for SLS, Orion, 
and Ground Systems is 2.86 billion. Under current spending 
under the Continuing Resolution, NASA should be spending at a 
rate commensurate with the 2015 level of 3.25 billion, or 382 
million more. In fact, the current 2015 spending level is 118 
million more than the President's budget proposes for the year 
2020 in their five-year runout.
    On the other hand, for 2016 alone, this year's House bill 
is 546 million over the President's 2016 request and the 
Senate's bill is 647 million more. If a budget bill is passed 
for NASA this year at these higher levels, the programs will 
adjust spending upward. Programs will make the most of these 
funds in advancing progress, but changing spending rates 
creates inefficiencies. They will still plan to the budget's 
reduced level for 2017 and beyond. I do advocate for the higher 
levels. If the Administration would propose at needed values 
within small percentage points of consistent Congressional 
levels, spending rates would be much more stable and planning 
more reliable. I believe this disparity in policy priorities 
has remained since the cancellation of the Constellation 
program.
    I was asked to comment on the use of the Joint Confidence 
Levels, an analysis used in the KDP-C milestones for SLS last 
year and the same milestone for Orion this year. These 
milestones led to NASA announcements of delays for SLS of a 
one-year and up to a two-year slip of the first crewed flight. 
Theoretically, the JCL is a good statistical analysis for 
evaluation of the uncertainties in programs that affect budget 
and schedule. An accurate JCL calculation requires meticulous 
collection of extremely detailed tasks, costs and schedules; 
costing program resources.
    The JCL provides a valuable function for rigorous 
inspection of a program. However, from my direct experience in 
implementing it, I believe it has little utility for predicting 
schedule milestones in this budget environment when planning to 
the President's budget request rather than actual Congressional 
appropriated budgets. JCL outcomes become a self-fulfilling 
prophecy. Because actual budgets are actually higher year-to-
year, NASA tries to maintain earlier planning dates and is 
trying to mitigate this confusion but could be more efficient 
if the source of confusion were not there.
    There are significant differences in budget and oversight 
practices between the Commercial Cargo and Crew and the 
traditional exploration programs. With the experience gained 
thus far, best practices should be established for both while 
preserving safety and accountability.
    SLS and Orion are first critical developments in our human 
exploration of the solar system. They are making great progress 
in spite of these burdens.
    I want to thank the Committee and your staff again for your 
continued support of NASA and human spaceflight. I have 
submitted further detail in my written testimony, and welcome 
your questions. Thank you.
    [The prepared statement of Mr. Cooke follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Babin. Thank you, Mr. Cooke. We appreciate it.
    I now recognize Mr. Dumbacher for five minutes to present 
his testimony.

                TESTIMONY OF MR. DAN DUMBACHER,

               PROFESSOR OF ENGINEERING PRACTICE,

                       PURDUE UNIVERSITY;

             FORMER DEPUTY ASSOCIATE ADMINISTRATOR,

                     HUMAN EXPLORATION AND

              OPERATIONS MISSION DIRECTORATE, NASA

    Mr. Dumbacher. Chairman Babin and Members of the Committee, 
thank you for the opportunity to discuss NASA's deep space 
exploration efforts on this, the 31st anniversary of Astronaut 
Kathy Sullivan's spacewalk. On this day in 1984, Dr. Sullivan, 
current NOAA Administrator, became the first U.S. woman ever to 
see the Earth from that unique vantage point.
    I thank you also for your support of our nation's space 
exploration efforts. It is an honor for me to represent Purdue, 
a public land-grant university, educating the next generation 
of explorers. I find the students of today to be part of a 
curious, passionate, and dedicated generation. These young 
voters are ready to build and create a better future for all of 
us.
    And, as a former NASA team member, I want to express my 
utmost respect for the NASA/industry team's accomplishments in 
the current environment. This team is working on a scale larger 
than Apollo with a constrained budget. Much like today's 
students, their enthusiasm and dedication to the mission is 
evident every day and sets the leadership example.
    The NASA 2010 Authorization Act and the 2014 Pathways to 
Exploration Report from the National Research Council provide a 
sound, inclusive basis for space exploration goals and 
objectives that should be adequately funded.
    I believe we are at a critical juncture in our exploration 
efforts. As we continue missions to extend our presence further 
into the solar system, we must build the foundational 
capabilities for humans to go onward: the Space Launch System 
and Orion. We must effectively utilize humanity's principal 
technological achievement, the International Space Station, as 
an exploration test bed and valuable research facility, and we 
must seed the initial phases of commercial space travel.
    Given the budget instability and continuous policy debates, 
the NASA/industry team is making great progress. The team is 
dedicated to building all systems as safely as possible, as 
soon as possible, and as cost-efficiently as possible. The 
Space Launch System has successfully passed its Critical Design 
Review along with engine tests, booster tests, and structures 
that were flight-tested last December. The Orion capsule 
completed its first flight test last December, and is 
proceeding to systems testing. Orion's European Service Module 
is on track for the first flight and launch infrastructure is 
on schedule.
    Keeping these critical programs on schedule is essential 
for two reasons. One, the United States needs to continue to 
maintain our global leadership in space. We must leave this 
legacy of leadership for the next generation. Two, schedule 
equals cost. Maintaining funding stability, and therefore 
schedule, is essential to minimizing the cost of these 
programs. NASA's leadership, plans, and management 
implementation reflects the need for cost efficiency with 
reduced insight/oversight, reduced management and integration 
overhead, all while carefully maintaining and improving crew 
safety over previous systems.
    Budget stability is the major issue in executing these 
programs. All players in the appropriations process have a 
stake in maintaining this budget stability. This budget 
stability has two basic components. First the annual debate 
between the Executive Branch request and Congressional 
appropriations is an important factor that drives inefficiency. 
The second aspect of budget stability is the recent history at 
the national budget level of continuing resolutions and 
government shutdowns. Both components lead to cost and schedule 
impacts to the programs via continuous re-planning, confusion 
across the entire team, and loss of team focus.
    NASA diligently manages risk, cost, and schedule through 
daily, direct contractor interaction, periodic element program 
reviews with detailed discussions of technical and programmatic 
progress, issues, and risks. The Joint Confidence Level is a 
model risk-based approach to assess potential technical and 
programmatic uncertainties and their possible sensitivities and 
impacts to the cost and schedule of a program. This has proven 
to be successful in robotic mission programs but is much more 
difficult for the large, longer term programs such as the Space 
Launch System and Orion.
    In summary, the biggest challenge in developing the Space 
Launch System, Orion, the launch support infrastructure, and 
Commercial Crew is budget stability, not the eventual technical 
issues. Managing these programs efficiently and effectively is 
the result of the dedicated NASA/industry team across this 
country, and the international partners.
    The government-funded Lewis and Clark expedition helped 
open the frontier for the commercial development of rail 
transportation and other opportunities to the West Coast. 
Today, NASA is opening the frontier of space and helping to 
build the space economy.
    Thank you for your time and attention. I look forward to 
your questions.
    [The prepared statement of Mr. Dumbacher follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]     
    
    Chairman Babin. Thank you, Mr. Dumbacher. We appreciate 
your testimony.
    I now recognize myself for five minutes of questioning. I 
presume these will be for both of you guys, if that's okay.
    When the Administration slipped the recent Orion launch 
schedule, NASA was very quick to point out that they were still 
planning the original launch date. If NASA program managers 
believe that the earlier launch readiness date could be kept on 
track with historical Congressional appropriations, then why 
doesn't the agency commit to those earlier dates to begin with?
    Mr. Cooke, how about you first?
    Mr. Cooke. I understand what you're asking. Within the 
agency and within the Administration, NASA plans to the 
President's budget request, which is the Administration policy, 
and that's where the confusion comes in when the Congressional 
budgets are higher. Naturally, people in these programs are 
wanting to progress, they are wanting to plan as much work into 
the funding they get, and so the appropriated budgets are 
utilized, and they make as much progress as they can. However, 
if planning in out years to the President's budget request, if 
they're doing that, then at some point it becomes self-
fulfilling as the long lead items can't be planned on or bought 
or paid down, and so gradually the advanced planning overtakes 
what the schedule that they might have held.
    Chairman Babin. Okay. And how about you, Mr. Dumbacher?
    Mr. Dumbacher. Congressman Babin, I agree with everything 
that Mr. Cooke just said. I think it's clear from a program 
implementation perspective that when we try to put the best 
plan together that we can and we are continuously working--in 
my tenure at NASA, we were continuously dealing with a plan 
against the President's budget request as necessary by policy 
within the Administration, and also having to recognize that 
the appropriations process was probably going to change that 
number and increase it, that we also had to develop another set 
of plans to be prepared for the appropriations process. That 
was standard operating procedure. We did it annually because of 
the policy debates that were ongoing, and we did the best we 
could with the planning and with the execution given that 
uncertainty that we were working with each year.
    Chairman Babin. Okay, sir. Thank you.
    My second question would be, if NASA reverted to the manner 
in which it applied termination liability to contractors under 
the Constellation program as well as how it treats the ISS 
program and JPL, how much more money would that allow the 
scientists and engineers to devote to development work and how 
would that impact the schedule?
    Mr. Cooke. In terms of the past, for instance, for the 
International Space Station, there were actually words in 
legislation that helped that situation so that termination 
liability was less of a burden to the programs. Currently, or 
early in--actually as post termination of Constellation 
program, the programs--each program has to set aside, and each 
project has to set aside funding to protect for termination 
liability. As I understand it, the number for SLS and Orion 
right now is on the order of 420 million, and that--if that is 
held back, then that's money that's not going to execution.
    I think there may be some relaxing of how that's done 
currently but the contractors are actually, as I understand it, 
responsible for maintaining the termination liability. So in 
any event, any help that they could have in not having to hold 
back funding would be beneficial, in my view.
    Chairman Babin. Okay. Thank you.
    Mr. Dumbacher?
    Mr. Dumbacher. Chairman Babin, I agree with Mr. Cooke just 
said. There--during our execution of SLS and Orion up until I 
left the agency, termination liability, having to withhold that 
work or having to hold that money back each year meant that it 
was that amount of work that we were not making progress with 
across SLS and Orion. It was an impact to the program. It was 
an impact to our schedule. And it became--and it was an annual 
issue that we had to deal with both from a government policy 
implementation perspective as well as a corporate risk 
management strategy perspective.
    Chairman Babin. Thank you, and I'll recognize the 
gentlewoman from Maryland.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you again 
to the witnesses.
    Mr. Dumbacher, in your prepared statement, you referred to 
the National Academies' Pathways to Exploration report and note 
that its recommendations ``should serve as the basis for an 
overall strategy and plan for human exploration.'' This 
Subcommittee and the House have similar views and called for a 
human exploration roadmap in the House-passed 2015 NASA 
authorization bill.
    I just wonder what your views are on the key thrusts that 
are made by the Pathways report and whether NASA's strategy of 
Earth-reliant proving ground and Earth-independence satisfy the 
National Academies' recommendation, and if they don't, why not? 
And then what should Congress expect to see in a solid 
strategy? What are the key elements for a roadmap that we 
should be looking at that have a little bit more precision?
    Mr. Dumbacher. Congresswoman Edwards, I think the 2014 NRC 
report that--and I will be honest, I am speaking from my own, 
not the fact that the chairman of that committee is now the 
president of my university----
    Ms. Edwards. That's not a conflict.
    Mr. Dumbacher. That's the way the faculty look at it.
    That report lays out a very sound approach. It lays out an 
approach and should be, in my opinion, used as a touchstone 
along with the 2010 Authorization Act to put a strategy 
together. I think your question about the Earth-reliant proving 
ground, Earth independent, that's the first level of it. It's 
not--it needs to be fleshed out in greater detail with more 
strategy along the way. I think the key elements of that 
strategy need to recognize that this is exploration--we will be 
learning each step of the way--and it has to be flexible and we 
have to have the ability to modify the strategy based on what 
we learn because, in essence, what we are doing with 
exploration is, we are expanding our neighborhood from low 
Earth orbit out to cislunar space and then eventually to Mars, 
and I hope beyond that.
    So I think those elements are essential to build upon the 
plan, and I think the NRC report gives us a good methodology by 
which to think about it, a good starting point, and also some 
good indication frankly from a funding perspective in terms of 
what kind of funding would be reasonable along with an 
inflation growth to be able to implement such a strategy.
    Ms. Edwards. So let me just ask you, Mr. Cooke, then about 
funding because we've heard talk already on this Committee 
about the debates and the push and pull that have gone back and 
forth between Congress and the Administration, but do you have 
some thoughts about the constraints that this uncertain 
environment with the sequester caps in place and basically 
living at level funding in what Mr. Dumbacher has described as 
an exploration environment, what kind of constraints that puts 
on our ability to fully explore and develop this program?
    And then lastly, I mean, I have often thought that it might 
make more sense for Congress to simply put a date certain, an 
endpoint. NASA is saying maybe in the 2030s. Well, what if 
Congress came back and said, well, how about 2020, and then we 
develop a budget and a program around something that's more 
certain than just continuing to expand it into the future, and 
I'll leave you with the balance of my time.
    Mr. Cooke. I believe that the flat budget is one--well, 
it's a fact that with inflation, a flat budget has less buying 
power over time, so to explore and move beyond where we are, 
move to the next steps after SLS and Orion, it will require 
increased funding. There was at some level, and not terribly 
high, I think, but funding does need to be restored over time 
to exploration in order to make these goals, and I think it is 
a good question to ask if we are to get to, say, the Moon, by a 
date, to Mars at some date, what does it take to do that and I 
think that's your question. I think it's a great question. It's 
one that deserves an answer. It's--that's really the way it 
should be done.
    And then of course, you can decide, and then it gets into 
debate of deciding whether or not it can be afforded, but 
certainly that's the way a program should be laid out, in a way 
that has development funding that is more efficient than what's 
being done currently under caps and flat-lined budgets.
    Ms. Edwards. Thank you, Mr. Chairman.
    Chairman Babin. Thank you.
    Now we recognize the gentleman from Alabama, Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    This is a question for both of you. How should NASA pick a 
human exploration mission end timeline?
    Mr. Cooke. I believe--and I have been able to briefly read 
the report that was put out yesterday by NASA. I think there 
are a lot of good elements in it. But I think in laying out a 
program, one thing that is missing from it and one thing I've 
stated before, in fact, I testified on it in May of 2013 in 
this Committee, I believe that we need to start with a 
discussion in the community, whether it is science or the 
exploration committee including our international partners, 
those who are interested in developing resources on the Moon, 
we need to have a conversation up front to lay out objectives 
for what we will achieve on these missions. It's not just a 
matter of well, we're going to build this rocket to go to this 
place. It's important to understand what we want to achieve, 
and I think laying that out helps guide the steps involved. And 
personally, I believe those steps include going to the Moon, to 
going potentially to the moons of Mars and to Mars itself.
    Mr. Brooks. Mr. Dumbacher, do you have anything to add?
    Mr. Dumbacher. Congressman Brooks, yes, I do. A couple of 
points to add to Mr. Cooke is that as it's necessary to bring 
the stakeholders along, it's also--I think we need to be very 
careful recognizing the funding constraints that we operate 
within that we need to make sure that the elements that we 
build for exploration don't just become one-offs or just be 
able to used once, that they have a continuous applicability 
through the rest of the exploration strategy. I think that's a 
key element that we need to do, and we also frankly need to be 
very careful about making sure we live within the funding 
constraints that are in the appropriations levels that are 
provided by the Congress. So those are the two key elements I 
would add to what Mr. Cooke had.
    Mr. Brooks. Thank you. This is again a question for both of 
you, and Mr. Cooke, I've already heard your comments about 
going to the moon, Mars's moons and perhaps Mars, but if you 
have any additions, please offer that.
    What do you recommend as NASA's SLS and Orion missions?
    Mr. Cooke. I believe that the SLS and Orion represent the 
first critical steps in any exploration activity beyond Earth 
orbit. You need the lift capacity of the Space Launch System. 
You need the volume if its payload----
    Mr. Brooks. I understand that, but do you want our missions 
to be?
    Mr. Cooke. I think personally, there's discussion about 
cislunar space. That is definitely a possibility. It could be a 
very good intermediate point in Mars, a place to send Mars 
missions from, but I do believe in going to the Moon.
    The Moon that we know now based on spacecraft that have 
gone there since Apollo has opened up a different Moon than 
we've seen before that's much more dramatic and landscaped. 
We've mapped resources. I think there's a lot to learn if we 
sent people there. So I think that the Moon is still an 
important place to go on the way to Mars eventually.
    Mr. Brooks. Mr. Dumbacher, do you have anything to add?
    Mr. Dumbacher. Yes, Congressman. A couple of things I would 
add are, again, everything we do needs to be buildable towards 
Mars. It needs to help take us towards Mars and be usable along 
the way. We need to do the testing necessary to make sure that 
we learn how to operate in environments where we are further 
away from home than we've ever been in the distant retrograde 
orbit cislunar space area. We'll be nine days away from home as 
compared to three days away from home during Apollo.
    Another aspect I would add is an increase in mission 
frequency. I think it's important that we shorten up the time 
between missions. That means additional funding, but it is--I 
believe it's important that we increase the mission frequency 
to maintain our skills, build our skills and then be able to 
learn as quickly and provide the benefits back as quickly as 
possible.
    Mr. Brooks. I'm almost out of time, but this is a short 
question.
    Since Orion is running behind schedule, what can be flown 
on the Space Launch System in its place from a test standpoint?
    Mr. Dumbacher. Congressman, that's a--I'll take that first.
    We--that's a good question. I think the two programs have 
been integrally linked from the beginning in that the first 
flight test EM-1 needed to have an uncrewed version of Orion, 
and I believe that they are on schedule for that flight, and 
with NASA continuing to work to the management agreement of 
2021, assuming the Congressional appropriations levels, they're 
still working to the existing plan. What other cargo missions 
there might be would remain to be seen but I think we would 
have to have--NASA would need to take a look at possible cargo 
missions, other possible payloads, other possible science 
missions.
    Mr. Cooke. And I would agree that there are possibilities. 
I agree with what Mr. Dumbacher said, and the plan is for Orion 
to fly. But in the future, SLS will provide a unique capability 
for larger telescopes with larger apertures potentially. There 
has been discussion on a Europa mission at some point.
    There are potentially uses in defense space as well. It has 
unique capabilities that could provide other very good 
opportunities.
    Chairman Babin. The gentleman's time has expired. Thank 
you.
    Now I call on the gentleman from Virginia, Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman.
    I'll begin with Mr. Dumbacher. You talked about budget 
stability. You mention in your testimony that the NRC report 
and the 2010 Authorization Act should be followed to ensure 
adequate funding for SLS and Orion. Could you please explain 
what you mean by that, and especially in light of the fact that 
the last time humans left low Earth orbit was 1972 with Apollo 
17? What would this do to increase our confidence that the EM-2 
launch will actually be carried out in 2021?
    Mr. Dumbacher. I think, Congressman, first of all, at the 
Congressional appropriations level and NASA continuing to work 
towards the 2021 date for the Orion first crewed flight, I 
think the Congressional appropriations levels and accounting 
for inflation over this time period, recognizing the loss of 
purchasing power that that infuses into the system, can help--
Congressional appropriations can maintain the 2021 date, and I 
think that's important.
    For the overall exploration, I think the thoughts put 
together as part of the NRC report that talk about a level of 
funding that basically starts out similar to the Congressional 
appropriations level, grows at about two to three percent per 
year in real growth plus inflation on top of that, I think 
provides a good, sound basis, and importantly, if NASA knows 
that that's going to be the plan over the long term, they can 
plan to that, and that's the important part is if you know what 
you're working to over a longer horizon and you can plan to 
that, that is a key part.
    One of the things we struggled with in my time at NASA was 
the budget request that came out as a one-year budget request 
and the budget horizon from then on was labeled as 
``notional.'' As a program manager, I struggle with, how do I 
plan to a notional budget? So the key point is, knowing what 
the numbers are, having some feel for what those numbers are 
going to be over a five-, ten-year budget horizon and then you 
can put a reasonable program together.
    Mr. Beyer. Thank you very much.
    Mr. Cooke, Chairman Babin talked in his opening statement 
about the Administration's strangling NASA with the budget 
cuts. I along with many of our colleagues on both sides offered 
amendments in Committee to increase the NASA authorization, 
only to be told that our Committee hands were tied by the 
Budget Control Act and by the bicameral budget passed in the 
House and the Senate with Republican majorities.
    How much of these budget cuts are driven by sequester, by 
the Budget Control Act?
    Mr. Cooke. I honestly can't answer that specifically on the 
Budget Control Act. My experience has been primarily between 
Congressionally passed budgets and President's budget, and I 
would say as an example right now of what I think could be 
done, if NASA were to be able to count on the Congressionally 
approved levels, is make a decision to go to a larger upper 
stage than the first--than the one flown on the first test 
flight. We're flying an interim upper stage based on Delta 
upper stage for this test flight, and if NASA could count on 
the Congressional levels, it could probably make a decision to 
go to the upper stage it needs for exploration. That would keep 
NASA from having to human-rate this interim upper stage for the 
first crew flight, which would save a significant amount of 
money. So just the efficiencies gained in a higher budget in 
terms of the development, in developing the right answer 
instead of interim steps would be of great benefit.
    Mr. Beyer. Thank you, Mr. Cooke.
    Mr. Dumbacher, again, budget stability. We just avoided a 
government shutdown at the end of September. We're now looking 
at hitting the debt ceilings in the next couple of weeks. We've 
postponed the budget and the government shutdown debate until 
December 11th. What would--what was the impact on Orion and SLS 
when we shut down the government for 16 days in 2013? What 
would be the impact if we shut it down for 10 days later this 
year?
    Mr. Dumbacher. Well, I cannot speak to the exact details of 
what a potential impact would be for 10 days down the road from 
here, but back two years ago when we did have that 16-day 
shutdown, there was a significant impact to the program, 
particularly because at that point we were-- particularly Orion 
was coming up on the hardware and the integration, a year away 
from the exploration flight test. And so having to stand down 
the team for 16 days and then restart it, when you consider the 
level of budgets that we're talking here and the burn rate that 
we had at that time, which I recall, if I do my math correctly, 
was on the order of $60 million a week, that's a significant 
impact to the program because it's not just the 16 days, it's 
the planning that the team had to go through to prepare for 
that, it's the phasing down to get to that shutdown, and then 
it's the restart to come up after the shutdown. So that was a 
significant impact to Orion and to SLs as well as Ground 
Systems across the board just for a 16-day impact.
    Mr. Cooke. I'd like to add to that just briefly. NASA is in 
a unique situation on something like a shutdown. It is not like 
most agencies. It's developing something. It's developing 
hardware. It's--they're programs that are underway. So it's a 
lot of people with a lot of interrelated tasks and jobs that 
most agencies don't deal with. So a shutdown does have an 
impact in development.
    Mr. Beyer. Thank you, Mr. Chairman.
    Chairman Babin. Thank you. I would remind the gentleman 
from Virginia that in our budgeting and authorization and 
issues of exploration, we fully funded--this Committee always 
fully funded that, and what you were referring to was not 
exploration with some of those issues.
    I now would like to recognize Mr. Rohrabacher, the 
gentleman from California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    It's good to see you fellows again and again over the 
years.
    How much is the Mars initiative going to cost when it's 
completed? When we get the person on Mars and back, how much 
will we have spent?
    Mr. Cooke. I think at this point, since we don't have a 
specific roadmap with missions laid out, we really don't know 
the cost. I will say that if you take any program--if you take 
the Shuttle program, if you take the Space Station program and 
if you put the full cost at the front end of it and said this 
is what it was going to cost, it would be a big number, and----
    Mr. Rohrabacher. Okay. Well, let me ask you this then. 
Has--you mean there's no document that you've read that NASA--
and we've all signed on that says this is how much is going to 
be spent to achieve this goal? What did we agree to? Congress 
hasn't--we don't even have a budget so we don't even know how 
much it's going to cost for the biggest project in NASA to 
achieve its goal? I mean, this is insane. How much have we 
already spent on the Mars project?
    Mr. Dumbacher. Well, Congressman, let me--first of all, 
this has been a long-term investment from the initial vision 
for space exploration days and going into the Constellation 
program. I cannot give you off the top of my head specific 
numbers, but I can tell you----
    Mr. Rohrabacher. Hold on. Do you think NASA knows? So what 
I'm getting here is that we don't even know how much--there is 
no figure as to how much is going to be spent and we don't know 
how much has already been spent, which means we don't know how 
much more will be necessary to be spent from now to achieve the 
goal, but we're talking about, you know, tens of billions of 
dollars here. The NASA budget altogether is 17 billion. Let me 
just note, when we started off down this road, some of us 
suggested that we were going to have to drain money from every 
other NASA program or it wasn't going to work, and it's not 
working, and it's because we don't have the money, and right 
now just from the testimony, you're saying we're not being 
responsible at this level, they're not being responsible at 
NASA either.
    We have a huge asteroid that's going to come by the Earth 
or at least not right by the Earth but closer to the Earth than 
usual in the next few days, and we have no plan that if 
something happened that we recognized something was coming and 
that five years from now it was going to hit the Earth and 
destroy it. We don't even have in place a plan to actually 
deflect an asteroid yet. We've got--and let me just note, 
people are complaining about the budget, we're not giving NASA 
the money that it needs for the development of this huge rocket 
that's necessary for Mars. Well, if we were going to--if people 
really believed that having a man on the Moon planting our flag 
as compared to just having robots is worth all of these 
billions, well, they've got to put their money where their 
mouth is, but nobody does that. We have--nobody's willing to 
prioritize.
    NASA spends a billion dollars a year proving global 
warming, just to prove it, a billion dollars a year. Well, 
maybe if someone on that side of the aisle might be willing to 
give up that money and put it--if they really believe in going 
to Mars, putting it into the big rocket that we need to take us 
to Mars, well, then maybe we'd have some hope that we can be 
successful in something, but nobody's that responsible here.
    By the way, of the billions of dollars our government 
spends, we are borrowing 20 percent of it from our children who 
will repay the Chinese or the Japanese or whoever is buying up 
our debt. We aren't even--and people are complaining. That's 
why we have the sequester in place because no one was willing 
to make a choice.
    What I'm seeing here, and again--look, my father was a 
pilot. My dad--and we have this great aviation technology that 
we put to use for humankind now. That happened because people 
were actually responsible. They made responsible decisions 
about development of technology.
    And Mr. Chairman, I'll just end my little tirade by saying 
that I think that we are not being responsible. I think Elon 
Musk will be on Mars before NASA is and not him spending any 
government money as well. Thank you.
    Mr. Bridenstine. [Presiding] The gentleman yields back.
    I recognize the gentleman from Colorado, Mr. Perlmutter, 
for five minutes.
    Mr. Perlmutter. Gentlemen, thank you for being here. Thank 
you for your service to the country. Thank you for your service 
to the future because that's what this is about. And I just 
feel very fortunate that I got a place on this Committee to 
talk about things like this, and had an astronaut in my office 
not long ago, a guy named Terry Virts, and my guess is, both of 
you have worked with him, where he said this is not rocket 
science, this is political science, and the part that we're 
dealing with right now is political science, and Mr. 
Rohrabacher and I, you know, may have some differences but 
generally this Committee--and I have been on a lot of 
committees in this Congress. This Committee gets along and 
agrees more than almost all the other ones.
    And so looking at this, you know, we're the authorizing 
committee so you got the Budget Committee, the authorizing 
committee and the Appropriations Committee. I on this Committee 
would like to be able to give you something that says you are 
authorized to get us to Mars as quickly as possible. You know, 
I'd like to be able to say something in an authorizing 
language--ten years from now, we're going to have our 
astronauts on Mars for the future, for science, for discovery, 
for whatever. And so for us, if there's a goal of something 
like that, then we've got to find a way to do it so that you 
can provide a ten-year plan, knowing under the Constitution 
from year to year, no Congress can bind the next Congress--
that's just the way the Constitution is--but to give you some 
real guidance in setting a plan over a period of time to get us 
there.
    And so for me, I just suggest to my friends on this 
Committee, you know, say this is a national interest, it's a 
huge investment, either we raise taxes to make that investment, 
which, you know, will give some people, you know, heartache, or 
we say we're going to prioritize this against the whole other 
budget, all the other appropriations. Or we can do a public-
private partnership and get some additional investment, or we 
could do a joint venture with some other countries as we've 
done with the Space Station. And I'm a Star Trek guy and I look 
at the bridge of the Enterprise and I see every nationality 
possible and then people from other planets too. But we can do 
those kinds of things or maybe fee-based, but that's our 
problem. That the political science piece of this thing.
    Now, the two of you have had to deal with Congress, you've 
had to deal with the White House. What would you suggest that 
we do to give you a ten-year plan? Mr. Cooke?
    Mr. Cooke. I can tell you from experience that the 
Authorization Acts have been very beneficial to laying out our 
future, and the 2010 Act was very important to us. I encouraged 
development of plans because they represent--in the end, 
they're obviously a compromise in the end when they all get 
passed, and having a consensus on a direction is very 
important. The 2005 Act was important to us, the 2010 Act was.
    So those do have an impact, and we--they actually--the 2010 
Act actually set the motion forward to announce in 2011 the 
Orion and SLS programs.
    Mr. Perlmutter. Mr. Dumbacher?
    Mr. Dumbacher. Congressman, as I stated in my testimony, I 
think that as Doug has said, that the 2010 Authorization Act 
provides the good starting point. It laid out three years. 
worth of funding levels. We-recognizing the constitutional 
appropriations process, NASA can do a better job of planning 
when it has some idea of what budget level to plan to, 
recognizing that that cannot be passed in an appropriations 
perspective because of the Constitution but having some concept 
of a plan so that if, for example, someone--this body were to 
come back and say use something like the 2014 NRC report as a 
planning basis, then NASA could go forward and use that.
    Mr. Perlmutter. So just a last question. If we said we want 
to be on Mars in 2025 in an authorizing bill, could you give us 
a budget for that?
    Mr. Dumbacher. Then the question would go to NASA to put 
that plan together and then they would need to put a budget 
requirement to meet that plan and they would need to come back 
and show that to this body for funding purposes.
    Mr. Perlmutter. Thank you very much.
    Mr. Bridenstine. The gentleman yields back.
    I have taken the gavel here so I'm going to recognize 
myself for five minutes before we go to Mr. Posey here for the 
next question.
    What I'd like to share, I heard Mr. Beyer earlier talk 
about the C.R. and shutdown and want to know the impact on NASA 
exploration and all that's critically important. I would like 
to highlight the fact that under a Continuing Resolution, NASA 
exploration actually gets more funding than if we went forward 
with the President's budget request, which--and I'm not saying 
that because I'm advocating for a Continuing Resolution. I just 
want to make sure people understand the President's funding 
priorities.
    Now, my friend, Mr. Rohrabacher, earlier was talking about 
SLS and Orion and how much money it's going to cost, and I 
don't share his sentiment that maybe those programs are ill-
advised. What I do believe is that if you're going to have 
those programs like what Mr. Perlmutter was talking about, we 
need to fund them. If we're going to have these programs, we 
need to fund them, and it's pretty simple.
    So we have seen the Administration repeatedly underfund the 
program in its fiscal requests every year. The inadequate 
funding requests coupled with delays in program announcement, 
arguments over destinations, and the use of accounting tools 
such as termination liability have caused further delays in SLS 
and Orion. When I see this back and forth between Congress and 
the Administration, I am left wondering a number of things. 
Since the President is not committed to this or at least it 
wouldn't appear that he has been, is this political? Are we 
setting ourselves up for political failure? And if I could 
get--maybe because he wasn't committed to it from the 
beginning. Could I get your opinion on that, both of you?
    Mr. Cooke. I don't think we're going toward failure. The 
programs, SLS and Orion, are moving forward and making great 
progress. It's definitely true that under these circumstances 
where the budgets are different and the President's budget 
request is less than what's appropriated, it does cause 
problems in programs. Decisions have to be made that are not 
optimum. So it ends up being inefficient and costs more in the 
end. However, even so, you have dedicated people at NASA that 
make them work, and they're making great progress.
    Mr. Bridenstine. Mr. Dumbacher?
    Mr. Dumbacher. I totally agree with everything Mr. Cooke 
just said. I have nothing fundamentally to add to that. I think 
I would like to reiterate that I do not believe we are working 
towards failure either. I think you see success out there. It's 
going to be hard at times because we are doing technical things 
that no one has done before in terms of manufacturing 
technology, manufacturing requirements, bringing in new 
technologies and taking humans further than we've ever gone 
before. It will be hard, but it's not failure.
    This dedicated team across NASA and industry is making it 
happen in spite of the political budget debate, and I think 
they should be commended for the progress that they are making 
to date.
    Mr. Bridenstine. And just so everybody here understands, I 
just want to make sure that we're going forward and actually 
accomplishing what we're setting out to do, and I think people 
on both sides of the aisle want to make sure that what we are 
funding is not in vain, and I think that's Mr. Rohrabacher's 
frustration, you know, people on both sides of the aisle, and 
it seems to me that if we continue to hit the president's 
budget request and in many case go beyond the President's 
budget request and yet we still have delay after delay and we 
don't have the launch frequencies necessary maybe to maintain 
the safety that is perfectly appropriate for this kind of 
program, the question is, are we adequately funding this 
program, and how do we go forward in a way that is appropriate, 
given that this is very serious business and lives ultimately 
will be at stake.
    Last question for you guys. As we move forward for deeper 
and deeper space exploration, do you see an environment where 
commercial habitats would be used maybe as, you know, something 
to, you know, orbiting the Moon for the long term, for example, 
if you guys could answer that?
    Mr. Cooke. I think that's potential. I encourage commercial 
development. Actually in the directorate that I managed when I 
was at NASA, we had the Commercial Cargo and Crew, and those 
are being developed and are needed at this point, and I 
certainly think that's a possibility. If the business case is 
there to support it, I think that's certainly in the realm of 
what could happen.
    Mr. Dumbacher. And Congressman, if I may, I would like to 
add to what Mr. Cooke just said in that in my view, it's 
critical that we continue to perform this exploration 
initiative and help build commercial opportunities because that 
is the future for the next generation, and it's going to be 
hard. We have the real-life things that we have to work through 
in terms of business plans and commercial markets and technical 
issues and all of that, but this country has a long history of 
pushing forward and working to solve those kinds of problems, 
and I think we need to continue doing that, not just for our 
own benefit but for the benefit of the next generations coming 
behind us.
    Mr. Bridenstine. Thank you, gentlemen.
    Mr. Johnson from Ohio is recognized for five minutes.
    Mr. Johnson of Ohio. Thank you very much, Mr. Chairman, and 
gentlemen, thank you for being here.
    Two reasons that I appreciate this hearing. I'm a big fan 
of space exploration. I grew up in the age of the Apollo Moon 
race. I remember vividly sitting in front of my television so 
many times listening to Walter Cronkite as he called the play 
by play, and everybody in our country was captivated by 
everything that was going on because each mission we were 
learning something newer and newer and newer about the tasks 
that lay before us, and it's amazing to me to think that we 
were able to accomplish that. In 1903, we flew the first 
airplane off the sands of Kitty Hawk, and 66 years later Neil 
Armstrong stepped out on the surface of the Moon. That's what 
we're capable of in America, and so much technology and marvels 
that we enjoy today came out of that effort, and so I applaud 
it.
    I'm also a program manager by trade, having spent 30-plus 
years in information technology. I've managed large programs. 
So from the perspective of a NASA program manager, gentlemen, 
what is the difference between a target date and a commitment 
date, and why might it be useful to have a target date that is 
earlier than the commitment date?
    Mr. Dumbacher. First of all, Congressman, the difference 
between a commitment date and a target date is the commitment 
date is the agency is legislatively held to reporting 
requirements on programs' progress. They--when we were--when I 
was in the agency, we purposely had to work through the 
commitments, recognizing that I believe it's the Nunn-McCurdy 
Act that required that we had to put a commitment there. If we 
were 15 percent over schedule or cost, then it was subject to a 
cancellation conversation. So the agency had to worry about 
that commitment, not just from a legislative perspective but 
also from an integrity/trust perspective to demonstrate it can 
do what it says it's going to.
    The target date is the date that I used, my team used, to 
try to keep the appropriate amount of schedule pressure on 
getting the work done as cost-efficiently as possible, as 
technically correct as we could, and maintaining the safety. It 
is the art of project management that says I used the schedule 
to help make sure I keep driving the work forward, recognizing 
that I don't want to do that at the expense of poor technical 
decisions, poor safety decisions, but I still keep enough work 
going on because that way I keep--I get it done as efficiently 
as I can.
    Mr. Johnson of Ohio. I liken this to an analogy of a 
student in college, even in high school. You handle the tough 
subjects first. You get those things done early in the 
semester. That way you're not sitting there with two weeks left 
to go before grade reports come out and you're behind. You 
don't want to get to that commitment date and find out that 
you've got that 15 percent overage in budget or schedule and 
have to face a Congressional mandate to come back and worry 
about cancellation. So I get it. I just wanted you guys to 
explain.
    A target date is the discipline to make sure that you don't 
miss the commitment date.
    Mr. Dumbacher. Right, and the difference between the target 
date and the commitment date is the program manager's schedule 
margin.
    Mr. Johnson of Ohio. Yeah. Got it.
    How might additional funding during the period--let's talk 
about budget for a second. How might additional funding--during 
the period fiscal year 2012 and 2013, how much additional 
funding during that period have changed the planning and 
management of the SLS and the Orion programs in ways other than 
schedule? Am I clear? Does that make any sense? How might 
additional funding during that period--other than schedule, how 
would it have affected those programs?
    Mr. Cooke. The additional funding at that time as well as 
now, I believe, helps you to get work done in parallel that you 
otherwise have to phase out if you have a limit to your 
funding. So you can plan things in a normal sense, things that 
are better integrated because you're developing them in 
parallel, you know the interfaces, you know how to pull them 
together, and if you're constrained where you can't do that, 
then you phase things out and you start this task, you stop 
that one. In some cases we've had a test, had a flight test on 
Orion back in 2010. We ended up laying off people who were 
critical to the success of the task because the next priorities 
were somewhere else.
    Mr. Johnson of Ohio. Right.
    Mr. Cooke. We achieved that. We still need it. But we had 
to make decisions so we could address the next priorities, and 
those things don't necessarily have to happen.
    Mr. Johnson of Ohio. Now, Mr. Chairman, this is a great 
example of how only a program manager can know how critically 
important the certainty around funding to keeping a project on 
schedule and not winding up in that conflict with a commitment 
date and ultimately see everything wasted if it's cancelled 
very, very important.
    Gentlemen, thanks for sharing your perspective this 
morning.
    I yield back.
    Chairman Babin. Yes, sir. Thank you.
    Now I recognize the gentleman from Florida, Mr. Posey.
    Mr. Posey. I thank you very much, Mr. Chairman, and let's 
dash back to reality just for a second.
    Every year, NASA's requests for Orion are lower than what's 
needed. Do you both agree with that statement?
    Mr. Dumbacher. I would agree with that statement. There is 
a prat of that statement, Congressman, that I'm trying to 
figure out how to answer you better in that the request is 
really the President's budget request.
    Mr. Posey. Yes. NASA's request--the President's request is 
NASA's request, and vice versa, and it's always lower than the 
program needs. Congress always comes back and pays more. The 
question is, why doesn't NASA, the Administration request the 
amount of money they think they need?
    Mr. Dumbacher. Well, I think that would be a question 
directly to the Office of Management and Budget because it's in 
that budget process that the agency goes through as we build 
the budget from the bottom up, from the programs and then they 
get submitted and they work within the agency priorities and 
then go over to the higher national-level priorities, it's in 
that last step where at least from my perspective, I saw here 
the numbers change.
    Mr. Posey. Well, the fact is, they request less year after 
year than they know that they need to keep the project on 
schedule. It's a fact. I mean, it's not a political statement 
and it's not a scientific statement. It's a fact. And Congress 
does in fact always pay more.
    Several Members were a little bit concerned about a budget, 
how much it will cost to Mars and what the total costs will be, 
and I think that's almost a laughable question at this point 
because they don't even have a plan yet. You know, in the last 
several NASA authorizations, Congress has mandated that NASA 
come up with a detailed roadmap for Mars, a steppingstone 
approach to exploration, if you will. I believe many on this 
Committee feel we've never seen a detailed plan, and I'd like 
for both of you to comment on what you see as essential steps 
in getting human to Mars and your thoughts on why NASA has not 
submitted a detailed plan to Congress as requested?
    Mr. Cooke. I have actually got written testimony from 2013 
that addresses that specific--that question specifically, but 
I'll go ahead.
    I believe the front end of it is laying out your objectives 
for what you want to achieve in your exploration program by 
destination, what is it we want to learn, how is it we want to 
prepare from one step to the next, and have a rational approach 
to----
    Mr. Posey. I agree with you. That's what should be done. 
The question is, why haven't they done it?
    Mr. Cooke. I can't say--I can't say why since I have left 
it has not been done. Actually when----
    Mr. Posey. Why wasn't it done while you were there?
    Mr. Cooke. Well, when I was there--I left at the end of 
September in 2011--we had just gotten through the period after 
the 2010 Authorization Act where we worked very diligently 
within exploration to answer that, what was asked for in the 
Authorization Act, and we announced SLS design and program the 
same month I retired. That was the first step. Our immediate 
concern was getting the front end of this started. We actually 
had a plan that we talked about that after we get the first 
steps on the way, we're going to come back and develop the 
plan, and----
    Mr. Posey. All right. I got that. I got it.
    Would you care to respond?
    Mr. Dumbacher. Congressman, I think I--agree with what Doug 
said. I think part of what needs to happen is a more public 
discussion about some of the planning and some of the 
strategies that need to be implemented to go to Mars and making 
sure we are all clear, that the stakeholders are all clear on 
what the goals and objectives are, and then allow NASA to go 
put a plan together.
    Mr. Posey. You know, every Member on this Committee, bar 
none, both sides of the aisle, want NASA to be successful. I 
can give you just so many instances, though, when at least from 
this perspective, they're their own worst enemy. If they can't 
come up with a plan, they want somebody else to do it, if it 
takes more funding for a plan, but you know, you have to have a 
plan actually before you do a budget. I mean, you can see, I 
hope, the negative effects of building a development schedule 
around a budget rather than letting the most logical schedule 
dictate the financial needs, and it appears that is what's 
happening, and Mr. Chairman, I don't know how we reel this 
thing in but it's just not something that I'm proud of the way 
it's being done, and I see I'm over my time. Thank you.
    Chairman Babin. Thank you, Mr. Posey.
    You know, I would also add that, you were asking the 
question of what is the cost of going to Mars, and I would ask 
what is the cost of not going to Mars.
    In our--we had a meeting of some industry specialists in 
space the other day, and I was told that there was a Chinese 
program planning a permanently crewed space station for 2020, 
and I think everybody in this room is aware of who holds the 
high ground, has the great advantage. So I would say that we 
can't afford not to try to get organized and get this planned 
and funded adequately.
    I want to thank the witnesses for being here, both of you 
folks today, and thank the Members for your questions, and the 
record will remain open for two weeks for additional written 
comments and written questions from Members.
    So this meeting is adjourned. Thank you.
    [Whereupon, at 11:43 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                    Answers to Post-Hearing Questions
                    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]                     
                    
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
